                                                                             Report No. DODIG-2014-052




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 1, 2014




                     DoD Did Not Negotiate Rates With
                     Overseas Health Care Providers and
                     Generally Paid Claims as Billed




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       DoD Did Not Negotiate Rates With Overseas Health
                                       Care Providers and Generally Paid Claims as Billed


April 1, 2014                                          Finding Continued

Objective                                              contract. However, TMA officials did not have documentation to
                                                       support these reasons. Additionally, TMA officials did not have a
We determined the extent to which the TRICARE          process in place to negotiate rates. Without negotiating rates or
Management Activity (TMA), through the                 implementing other cost containment measures, TMA potentially
TRICARE Overseas Program (TOP) contractor,             paid more than necessary for health care services provided by
negotiated and adhered to reasonable                   overseas providers and missed potential opportunities to obtain
rates for health care services provided in             the best value for health care services.
overseas locations.

                                                       Recommendations
Finding
                                                       We recommend that the Assistant Secretary of Defense (Health
TMA and TOP contractor officials did not               Affairs) initiate action to either establish negotiated rates with
negotiate rates in any of the 163 overseas             high-dollar-volume overseas providers or implement other cost
locations, which represented $238 million in           containment measures in high-dollar-volume locations with
health care payments in FY 2012. Also, TMA             significant increases. Also, the Assistant Secretary should establish
officials did not include language in the TOP          procedures to negotiate rates directly with the TRICARE Overseas
contract requiring the contractor to negotiate         Program contractor when the contractor provides service as a
rates with overseas providers.       TRICARE           health care provider.
payments increased from $21.1 million in
FY 2009 to $63.8 million in FY 2012 or
about 203 percent in six high-dollar-volume            Management Comments and
locations without negotiated rates or other
                                                       Our Response
cost containment measures.
                                                       The Assistant Secretary of Defense (Health Affairs) comments
According to the Chief of the TOP Office, TMA          partially addressed Recommendation 1.a, and stated he would
did not negotiate rates because TRICARE                include a requirement for a study in the follow-on TOP contract
represented a small market overseas; the               to assess the impact of negotiated rates on access to care in
contractor would not be able to successfully           South Korea and the United Kingdom. He did not agree to negotiate
negotiate rates based on local practices               rates or implement cost containment measures depending on
and constantly changing market volumes;                the findings of the study. Also, he did not agree to any actions for
negotiating rates could have a negative impact         Bahrain, Turkey, and Japan. He stated that he intends to implement
on providing access to quality care to active          maximum allowable rates in U.S. Territories. The Assistant
duty service members and their dependents;             Secretary did not address the specifics of Recommendation 1.b.
and requiring the TOP contractor to negotiate          We request additional comments on these recommendations by
rates would have increased the cost of the             May 1, 2014. Please see the Recommendations Table on the back
                                                       of this page.


Visit us on the web at www.dodig.mil


                                                                            DODIG-2014-052 (Project No. D2013-D000LF-0089.000) │ i
                   Recommendations Table
                                                                      Recommendations       No additional
                                        Management                    Requiring Comment   Comments Required
                    Assistant Secretary of Defense (Health Affairs)   1.a, 1.b

                   Please provide comments by May 1, 2014.




ii │ DODIG-2014-052 (Project No. D2013-D000LF-0089.000)
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                         April 1, 2014

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)

SUBJECT:	 DoD Did Not Negotiate Rates With Overseas Health Care Providers and Generally Paid 		
	         Claims as Billed (Report No. DODIG-2014-052)

We are providing this report for your review and comment. The TRICARE Management Activity
did not negotiate rates in any of the 163 overseas locations, which represented $238 million
in health care payments in FY 2012. Without negotiating rates or implementing other cost
containment measures, the TRICARE Management Activity potentially paid more than necessary
for health care services provided by overseas health care providers.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from the
Assistant Secretary of Defense (Health Affairs) partially addressed Recommendation 1.a, and did
not address the specifics of Recommendation 1.b. Therefore, we request additional comments
on Recommendations 1.a. and 1.b. by May 1, 2014. Also, the final comments should include
an expected date of completion for any actions that will be taken.

Please send a PDF file containing your comments to audyorktown@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We cannot
accept the /Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8905.
If you desire, we will provide a formal briefing on the results.



	                                              Amy J. Frontz
	                                              Principal Assistant Inspector General
	                                                 for Auditing




                                                                                                DODIG-2014-052 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________2

                  Finding. Missed Potential Opportunities to Reduce
                  Payments to Overseas Health Care Providers___________________3
                  Contract Did Not Require Negotiation of Rates________________________________________________4
                  Claims Generally Paid Without Any Cost Containment Measures____________________________5
                  Overseas Payments Increased in Locations Without Cost Containment Measures ________5
                  Overseas Payments Decreased in Locations With Cost Containment Measures____________8
                  Small Number of Providers Represented a Large Amount of Overseas Payments__________9
                  Overseas Local Practices and Market Volumes Affect Rates________________________________ 11
                  No Documentation That Access to Quality Care is Affected by Negotiated Rates_________ 11
                  TMA Did Not Determine the Potential Increase in Contract Costs_________________________ 11
                  No Process in Place to Negotiate Rates_______________________________________________________ 12
                  DoD May Have Paid More Than Necessary For Overseas Health Care_____________________ 12
                  Recommendations, Management Comments, and Our Response__________________________ 13

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 19
                       Use of Computer-Processed Data ______________________________________________________ 20
                       Use of Technical Assistance_____________________________________________________________ 21
                       Prior Coverage____________________________________________________________________________ 21
                  Appendix B. TRICARE Payments for Overseas Locations__________________________________ 22
                  Appendix C. TRICARE Beneficiary Population Statistics in Overseas Locations__________ 25

                  Management Comments_____________________________________________________ 26
                  Assistant Secretary of Defense (Health Affairs) _____________________________________________ 26

                  Acronyms and Abbreviations______________________________________________ 36



iv │ DODIG-2014-052
                                                                                              Introduction




Introduction
Objective
Our objective was to determine the extent to which the TRICARE Management Activity
(TMA), through the TRICARE Overseas Program (TOP) contractor, was negotiating and
adhering to reasonable rates for health care services provided in overseas locations.
See Appendix A for a discussion of the scope and methodology and prior coverage.


Background
TRICARE Management Activity
TMA, a field activity under the guidance and direction of the Assistant Secretary of
Defense (Health Affairs) (ASD[HA]), managed the TRICARE program under which
health care services are provided to DoD beneficiaries through September 30, 2013.
DoD Directive 5136.13, “Defense Health Agency (DHA),” September 30, 2013,
disestablished TMA and transferred TMA’s functions, including managing the TRICARE
program, to DHA on October 1, 2013. The TRICARE program combines the resources
of the Military Health System with networks of civilian health care professionals,
institutions, pharmacies, and medical suppliers to ensure service members and their
family members receive health care. TMA provided health care services to TRICARE
beneficiaries in the North, South, West, and Overseas health service regions.


TRICARE Overseas Program
The TOP is DoD’s health care program that provides health care support services to
more than 580,000 TRICARE beneficiaries outside of the 50 states and the District of
Columbia.    TMA contracting officials awarded the overseas health care support
contract H94002-10-D-0001 (TOP contract) on October 16, 2009, to International SOS
Assistance, Inc., to assist TRICARE Area Offices and medical treatment facilities with
the implementation of a health care delivery system to integrate the military direct
care system with host nation (overseas) provider networks. The TOP contract had an
estimated award value of about $269.1 million, if all 5 option years were exercised.
The base year period of performance began November 1, 2009; however, health care
delivery did not begin until September 1, 2010. The contract is in the 4th option year and,
according to the contracting officer’s representative for the TOP contract, $363.8 million
has been expended as of September 11, 2013. The TOP contractor subcontracted with
Wisconsin Physicians Service (WPS) to provide claims processing services.




                                                                                          DODIG-2014-052 │ 1
Introduction



                 Prior Audit Report Showed Need for Additional Controls in
                 TRICARE Overseas Program
                 DoD Inspector General (DoD IG) Report No. D-2008-045, “Controls Over the TRICARE
                 Overseas Healthcare Program,” February 7, 2008, stated that TMA officials could
                 further control health care costs by establishing price caps for professional services and
                 hospital inpatient claims in countries with high-dollar-volumes of claims and in countries
                 that experience significant increases in health care costs; ensuring that all TRICARE
                 claims, including TRICARE Global Remote Overseas claims, filed in a given country
                 were subject to the same price caps; and implementing price caps in Guam and the
                 U.S. Virgin Islands that were based on those used by the Centers for Medicare and
                 Medicaid Services. If TMA implemented price caps on claims for professional services
                 and hospital inpatient charges, TMA could annually put at least $16 million of Defense
                 Health Program funds to better use.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating as
                 intended and to evaluate the effectiveness of the controls. We identified an internal
                 control weakness where TMA officials did not have a process in place to negotiate
                 rates. We will provide a copy of the final report to the senior official responsible for
                 internal controls at the Office of the Assistant Secretary of Defense (Health Affairs).




2 │ DODIG-2014-052
                                                                                                                                      Finding




Finding
Missed Potential Opportunities to Reduce Payments to
Overseas Health Care Providers
TMA and TOP contractor officials did not negotiate rates in any of the 163 overseas
locations,1 which represented $238 million in health care payments in FY 2012. TMA
implemented cost containment measures2 to establish maximum allowable rates in
Panama, the Philippines, and Puerto Rico; however, TMA generally paid claims as billed
for overseas health care without any cost containment measures in other locations. Also,
TMA officials did not include language in the TOP contract requiring the contractor to
negotiate rates with overseas providers. Overseas health care payments for six of the
high-dollar-volume locations3 without cost containment measures increased from
$21.1 million in FY 2009 to $63.8 million in FY 2012, more than 203 percent.

The Chief of the TOP Office stated that TMA did not negotiate rates because (1) TRICARE
represented a small market overseas; (2) the contractor would not be able to
successfully negotiate rates based on local practices and constantly changing market
volumes; (3) negotiating rates could have a negative impact on providing access to
quality care to active duty service members and their dependents; and (4) requiring
the TOP contractor to negotiate rates would have increased the cost of the contract.
However, TMA officials did not have documentation to support these reasons.
Additionally, TMA officials did not have a process in place to negotiate rates.

Without negotiating rates or implementing other cost containment measures, TMA
potentially paid more than necessary for health care services provided by overseas
providers and missed potential opportunities to obtain the best value for the health
care services.

	1	
    The 163 overseas locations represented those locations where TMA made payments in FY 2012, as shown collectively in
    Tables 1 and 2. Appendix B shows overseas locations where TMA made payments in FY 2009 to FY 2012.
	2	
    For the purposes of this report, cost containment measures are methods used to limit costs by negotiating rates, and
    adhering to maximum allowable rates and inpatient per diem rates.
	3	
    The high-dollar-volume locations are the overseas locations without cost containment measures that significantly increased
    from FY 2009 to FY 2012.




                                                                                                                             DODIG-2014-052 │ 3
Finding



                 Contract Did Not Require Negotiation of Rates
                 TMA officials did not include language in the TOP contract requiring the contractor to
                 negotiate rates with overseas providers. The TOP contract states,

                                   In the absence of specific reimbursement rates mandated by TMA,
                                   the Contractor may negotiate reimbursement rates with host nation
                                   providers. The Contractor may also negotiate rates in locations where
                                   TMA has directed a specific reimbursement rate; however, the negotiated
                                   rate cannot exceed the TMA-directed rate.


                 However, a prior overseas contract4 (contract H94002-04-D-0004) stated,

                                   3.1.4. Cost-Containment Program. The Contractor shall implement
                                   a system for cost containment of billed claims charges. All services
                                   provided under this contract, to include air evacuation and commercial
                                   transport, must be provided at a reasonable cost.

                                   3.1.4.4. Discounts – Network Providers: The Contractor shall utilize
                                   best business practices to establish reimbursement rates at the most
                                   advantageous level (i.e. discount off billed charges) as part of its
                                   network agreements.


                 TMA officials were unsure of the reasons behind the change in contract language, though
                 they believe the contract allows the TOP contractor to negotiate rates, if practical.

                 Even though TMA officials did not include specific language in the TOP contract
                 requiring the negotiation of rates with overseas providers, the TOP contract required
                 the contractor to “provide a managed, stable, high-quality network or networks of
                 individual and institutional host nation providers which promote…best value health care
                 for TOP enrollees in the [medical treatment facility] and remote locations.” To attain the
                 best value in health care, the TOP contractor must deliver high-quality health care in
                 the most economical manner while ensuring patient satisfaction with the service.
                 Also, the TOP contract did not cite rate negotiation as a main objective of the contract
                 and TMA officials did not include performance incentive awards for the TOP contractor
                 to negotiate rates. As a result, TOP contractor officials did not negotiate rates for
                 health care services in any overseas locations under the TOP contract.




                 	4	
                       The scope of service of this contract only covered certain beneficiaries, such as active duty service members, in remote
                       overseas areas.		




4 │ DODIG-2014-052
                                                                                                                          Finding



Claims Generally Paid Without Any Cost Containment
Measures
Despite previous recommendations5 that addressed the need for overseas cost
containment measures, TMA implemented cost containment measures in only
three locations and generally paid claims without any cost containment measures
in other locations. Specifically, for FY 2012, on behalf of TMA, the TOP contractor
processed about 93 percent of the amount paid for overseas claims without any
reductions other than for cost-shares, deductibles, or other health insurance payments.6
For example, an institutional provider in the United Kingdom billed TMA for an active
duty service member receiving a 42-day inpatient treatment for alcohol dependence
at a cost of $34,535; the TOP contractor paid the amount in full without applying any
cost containment measures.


Overseas Payments Increased in Locations Without
Cost Containment Measures
TRICARE payments generally continued to increase in high-dollar-volume overseas
locations without cost containment measures. Health care payments increased by
40.4 percent for overseas locations without cost containment measures, as shown
in Table 1. TMA paid $63.8 million in FY 2012 for overseas health care in six of the
locations without cost containment measures (Bahrain, Turkey, South Korea, Japan,
Guam, and the United Kingdom), $42.7 million or about 203 percent more than in
FY 2009 when TMA paid $21.1 million.




	5	
      DoD IG Report No. D-2008-045, “Controls Over the TRICARE Overseas Healthcare Program,” February 7, 2008.
	6	
      Percentage was calculated on the initial submission of health care claims to the TOP contractor.




                                                                                                                 DODIG-2014-052 │ 5
Finding



                 Table 1. TRICARE Payments for Overseas Locations Without Cost Containment Measures1,2
                                                                                                                                         Percent
                             Location              FY 2009               FY 2010               FY 2011               FY 2012             Change
                                                                                                                                        (FY09-12)
                     *Bahrain                         $186,875             $543,198            $2,661,443            $5,468,486            2,826.3
                     *Turkey                         1,114,534             1,718,403              3,856,781            4,789,468              329.7
                     *South Korea                    4,855,587             7,472,837           18,587,668            20,705,672               326.4
                     *Japan                          2,741,933             3,399,000              9,638,800            9,622,368              250.9
                     *Guam                           2,206,403             2,611,078              3,934,796            4,585,942              107.8
                     *United
                     Kingdom3                        9,962,000           10,535,811            17,914,223            18,624,491                87.0

                        Subtotal4                $21,067,331           $26,280,327           $56,593,711           $63,796,427                202.8
                     U.S. Virgin Islands             1,475,313             1,855,349              2,238,308            2,378,004               61.2
                     Italy                           4,861,401             5,377,702              5,906,363            6,524,704               34.2
                     Singapore    3
                                                     2,136,366             2,674,315              2,533,618            2,458,930               15.1
                     Germany                       95,451,433          102,018,090           119,005,339           104,163,890                   9.1
                     All Other
                     Locations                     23,640,388            27,321,536            25,694,841            22,317,227                (5.6)
                     (150 in FY 2012)
                     International SOS
                     Air Ambulance                   1,817,605             1,990,025              6,848,665            9,614,580              429.0
                     (All Locations)3
                        Subtotal4               $129,382,506          $141,237,018          $162,227,134           147,457,336                 14.0
                        Total 4
                                                $150,449,837          $167,517,344          $218,820,845          $211,253,763                 40.4

                 Source: Military Health System Data Repository (MDR) as of July 2013
                 	1	
                        TMA allows overseas providers to submit claims up to 3 years from the date when care was provided.
                 	2	
                        The data in the table do not include care provided under the TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC).
                        TDEFIC covers the TRICARE For Life benefit, which is available to TRICARE beneficiaries that have Medicare Part A and
                        Part B. TRICARE For Life claims are normally filed with Medicare first and TRICARE generally pays second for care received
                        within the U.S. or U.S. Territories; however, Medicare does not cover claims for care received outside of the U.S. and
                        U.S. Territories.
                 	3	
                        The International SOS air ambulance claims were excluded from the Singapore, United Kingdom, and All Other Locations
                        (Australia, United Arab Emirates, and Venezuela) totals and listed separately because they were originally included in the
                        totals for care rendered in these locations, even if the air ambulance origin or destination did not include those locations.
                 	 4	
                        Totals may not equal due to rounding.
                 	
                     *	 Represents the high-dollar-volume locations with significant increases.


                 Figure 1 shows that payments for overseas health care have significantly increased
                 for six high-dollar-volume locations. For example, TMA paid $20.7 million for care
                 provided in South Korea in FY 2012, an increase of about $15.9 million from FY 2009,
                 as shown in Table 1 and Figure 1. World Health Organization data showed that private




6 │ DODIG-2014-052
                                                                                                                                    Finding



health care costs7 in South Korea increased by only 41 percent from FY 2009 to FY 2011,
although TMA paid 283 percent more in that country during the same time frame.
According to the Chief of TOP, some of the increases were due to policy changes, and
increases in the number of claims and beneficiaries receiving care.

Figure 1. Six High-Dollar-Volume Locations With Significant Increases
$25,00,0000



$20,000,000
                                                                                                         Bahrain

                                                                                                         Turkey
$15,000,000
                                                                                                         South Korea
                                                                                                         Japan
$10,000,000                                                                                              Guam

                                                                                                         United Kingdom
 $5,000,000



             $0
                      FY 2009             FY 2010             FY 2011             FY 2012
Source: MDR as of July 2013


TMA payments may continue to significantly increase resulting in much higher payments
over the next 5 years. Additionally, significant increases in payments could indicate
fraudulent activity. For example, the DoD IG reported in 20068 that payments in the
Philippines substantially increased from $2.9 million in FY 1998 to $64.2 million in
FY 2003, or 2,135 percent. TMA paid about 80 percent of the $64.2 million to the
billing Philippine corporation. In 2008, the U.S. District Court, Western District of
Wisconsin, sentenced the chief executive officer from that Philippine corporation to
5 years in prison for defrauding the TRICARE program. Also, the corporation was ordered
to liquidate its assets and pay $99.9 million in restitution to the U.S. Government. In 2004,
TMA officials implemented cost containment measures over payments for health care
provided in the Philippines, and in FY 2012, payments totaled only about $3.6 million.




	7	
      TRICARE is considered a private health care insurance program in overseas locations.
	8	
      DoD IG Report No. D-2006-051, “TRICARE Overseas Controls Over Third Party Billing Agencies and Supplemental Health
      Insurance Plans,” February 10, 2006




                                                                                                                           DODIG-2014-052 │ 7
Finding



                 Overseas Payments Decreased in Locations With Cost
                 Containment Measures
                 While TMA and TOP contractor officials did not negotiate rates with overseas providers,
                 TMA implemented cost containment measures in Panama, the Philippines, and
                 Puerto Rico. Specifically, TMA implemented a per diem reimbursement system and
                 maximum allowable rates to limit payments on TOP claims for institutional9 and
                 non-institutional10 claims in Puerto Rico in 1992, the Philippines in 2004, and Panama
                 in 2008. As a result, TMA paid 5.7 percent less in Puerto Rico, 67.1 percent less in
                 Panama, and 82.1 percent less in the Philippines in FY 2012 than FY 2009, as shown in
                 Table 2. For example, a Panama institutional provider billed TMA for a claim for a 1-day
                 hospital stay in October 2010 for $2,810.91, but the TOP contractor, using the inpatient
                 per diem rate, reduced the amount allowed to $1,381.11

                 Table 2. TRICARE Payments for Overseas Locations With Cost Containment Measures1,2
                                                                                                                                          Percent
                           Location                 FY 2009               FY 2010               FY 2011               FY 2012             Change
                                                                                                                                         (FY09-12)
                     Puerto Rico                   23,145,504             23,286,386            24,599,426            21,835,895              (5.7)
                     Panama                          4,432,911             2,270,304             1,509,781              1,458,881           (67.1)
                     Philippines                   20,207,834              6,914,361             4,021,874              3,610,817           (82.1)
                        Total3                    $47,786,249           $32,471,051           $30,131,081           $26,905,592             (43.7)

                 Source: MDR as of July 2013
                 	1	
                        TRICARE guidance allows overseas providers to submit health care claims for reimbursement up to 3 years from the date
                        care was provided.
                 	2	
                        The data in the table does not include care provided under the TDEFIC.
                 	3	
                        Totals for FY 2012 do not equal because of rounding.


                 According to the Chief of TOP, the cost containment measures were implemented as
                 a result of findings of fraudulent billing practices. The Chief of TOP agreed that the
                 measures reduced the costs, but she stated the measures had a negative impact on some
                 of the TRICARE beneficiaries’ access to quality health care and out-of-pocket expenses.
                 However, TMA officials did not provide any documentation to show that negotiating
                 rates would negatively impact access to care.

                 	 9	
                        Institutional claim records usually reflect treatment by a hospital or other authorized institutional provider with the
                        reasonable expectation that the patient will remain on inpatient status at least 24 hours. Institutional claim records may
                        also reflect outpatient care in a Hospice or Home Health Program.
                 	10	
                        Non-institutional claim records reflect either inpatient or outpatient health care services exclusive of inpatient institutional
                        facility services, including institutional care in connection with ambulatory surgery.
                 	11	
                        The allowed amount may be further reduced by other factors such as the share that the beneficiary must pay. In this
                        example, the patient had a cost-share of $345.25, thus reducing the total amount that TMA paid to $1,035.75.




8 │ DODIG-2014-052
                                                                                                  Finding



Small Number of Providers Represented a Large
Amount of Overseas Payments
A small number of overseas providers accounted for a
                                                                         Only
significant percentage of payments at overseas locations.
                                                                        a small
According to the Chief of the TOP Office, the TRICARE                 number of
program represented “a very small market overseas so              overseas providers
expecting host nation providers to offer a discounted             represented a large
                                                                     percentage of
rate for a small labor intensive population would not                the TRICARE
be reasonable.” However, we identified that TMA made                   payments.
payments to several high-dollar-volume locations, six of
which totaled $63.8 million in FY 2012 and each of which
increased by more than 85 percent from FY 2009 to FY 2012, as shown in Table 1.
Additionally, we identified that only a small number of overseas providers represented
a large percentage of the TRICARE payments in several high-dollar-volume locations
in FY 2011, as shown in Figure 2. For example, the five highest paid providers of
institutional care provided in the United Kingdom accounted for more than 60 percent
of the TRICARE payments in that location.          The five highest paid providers of
non-institutional care provided in South Korea accounted for more than 45 percent of
the TRICARE payments in that location.

If DHA and TOP contractor officials would attempt to negotiate with the highest
paid providers in the high-dollar-volume locations, DHA could significantly reduce
overseas health care costs. Also, a TOP contractor official stated that the TOP contractor
may be able to leverage existing relationships with providers on its commercial side to
negotiate rates for care provided to TRICARE beneficiaries. The ASD(HA) should initiate
action to either establish negotiated rates with high-dollar-volume overseas health
care providers or implement other cost containment measures in high-dollar-volume
locations with significant increases.




                                                                                         DODIG-2014-052 │ 9
Finding



                 Figure 2. Locations Where Top Five Providers Represent Significant Percentage of Total
                 Amount Paid in FY 20111,2

                                Germany                                     Italy                               United Kingdom
                              Institutional                             Institutional                            Institutional


                                            Top 5                  Others                                    Others
                                            31.2%                  30.7%                                     37.0%
                          Others                                                       Top 5                                     Top 5
                          68.8%                                                        69.3%                                     63.0%




                               Guam                                    South Korea                             United Kingdom
                          Non-Institutional                          Non-Institutional                        Non-Institutional3


                        Others                                                                                                 Top 5
                        37.6%                Top 5                 Others              Top 5                  Others           28.7%
                                             62.4%                 53.3%               46.7%                  71.3%




                 Source: MDR as of July 29, 2013
                 	1	
                       TRICARE guidance allows overseas providers to submit health care claims for reimbursement up to 3 years from the date
                       when care was provided.
                 	2	
                       The data in the figure does not include pharmacy related claims and care provided under the TDEFIC.
                 	3	
                       Excludes International SOS air ambulance claims from the United Kingdom.


                 In addition, if DHA requires the TOP contractor to negotiate rates with overseas health
                 care providers and the TOP contractor is also a provider of health care services, DHA
                 officials should ensure that the TOP contractor does not negotiate rates with its own
                 providers—TOP contractor personnel would not be independent in negotiating rates
                 with themselves. For example, International SOS, providing service as a health care
                 provider, submitted air ambulance claims for $9,685,345 in FY 2012. The ASD(HA)
                 should establish procedures to negotiate rates directly with the TOP contractor when
                 the contractor provides service as a health care provider.




10 │ DODIG-2014-052
                                                                                                  Finding



Overseas Local Practices and Market Volumes
Affect Rates
According to the Chief of the TOP Office, the TOP contractor may not be able to fulfill
a requirement to negotiate rates with overseas providers. TMA officials conducted
an industry forum with 11 companies before final development of the TOP contract
requirements. According to the Chief of the TOP Office, the general consensus among
the companies was that the ability to negotiate discounted rates was dependent on
local practices and the volumes provided by the client market and provider markets,
which were constantly changing.      Some companies mentioned that negotiation of
discounted rates might be possible in some locations overseas. We agree that it may
not be feasible to negotiate rates with providers in all overseas locations, as some
low-dollar-volume providers may be reluctant to accept negotiated rates. However,
DHA and TOP contractor officials may have success with negotiating rates with
high-dollar-volume providers. By negotiating rates with high-dollar-volume providers,
DoD may be able to achieve significant cost savings with limited effort while potentially
limiting fraudulent claims.


No Documentation That Access to Quality Care is
Affected by Negotiated Rates
The Chief of the TOP Office stated that negotiating rates could impair access to care
for TRICARE beneficiaries. She explained that a major goal of the TOP contract was to
ensure active duty service members and family members have access to quality care
while stationed in overseas locations. The Chief of the TOP Office stated that requiring
the TOP contractor to negotiate rates with overseas providers “could have a negative
impact on the availability of quality host nation providers willing to care for our
[active duty service members and their family members].” Although access to care is
a valid concern, TMA officials were unable to provide any documentation to show that
negotiating rates would impact access to care and stated that they did not formally
track access to care complaints.


TMA Did Not Determine the Potential Increase in
Contract Costs
TMA officials did not determine if contractor costs would result in a net increase to
health care with a requirement to negotiate rates. The Chief of the TOP Office stated
that requiring the TOP contractor to negotiate rates would increase contract costs.
However, DHA may reduce overall costs by negotiating rates.



                                                                                        DODIG-2014-052 │ 11
Finding



                 While TMA officials were concerned about escalating contract costs, they should also
                 have sought opportunities to reduce rising health care costs where possible, such as
                 negotiated rates. The previous Secretary of Defense, Leon Panetta, stated, “Health care
                 is another important benefit, and one that has far outpaced inflation.” Health care is an
                 area that presents opportunities to help control costs.


                 No Process in Place to Negotiate Rates
                 TMA did not have a process in place to negotiate rates. A TMA official stated that
                 TMA officials did not establish a process because they were not negotiating rates.
                 Additionally, in June 2013, a TOP contractor official stated that the TOP contractor had not
                 established a process.


                 DoD May Have Paid More Than Necessary For Overseas
                 Health Care
                 Without negotiating rates with overseas providers or implementing cost containment
                 measures, TMA may have paid more than necessary for health care provided in
                 overseas locations. For example, TMA may have paid a higher rate than necessary for
                 health care provided in Guam in the following instances.

                          •	 A provider billed $945 for a sleep study in March 2011—TMA paid the
                             amount in full. However, the highest Medicare allowable rate for a sleep
                             study in Guam was $603, about 36 percent less than the full amount that
                             TMA paid.

                          •	 A provider billed $1,537 for a Magnetic Resonance Imaging (MRI) procedure
                             in May 2011—TMA paid the amount in full. However, the highest Medicare
                             allowable rate for an MRI procedure in Guam was $629, about 59 percent
                             less than what TMA paid.

                          •	 A provider billed $154 for an office visit in September 2011—TMA paid
                             the amount in full. However, the highest Medicare allowable rate for the
                             type of office visit billed in Guam was $82, about 47 percent less than what
                             TMA paid.

                 The TOP contract states, “payment to host nation providers shall be the lesser of
                 billed charges, the negotiated rate, or the TMA-established reimbursement rate.”
                 Therefore, without negotiated rates or TMA-established rates, the TOP contractor
                 generally paid overseas health care as billed. If TOP contractor officials negotiated




12 │ DODIG-2014-052
                                                                                                 Finding



rates with the provider, TRICARE beneficiaries could also reduce their out-of-pocket
expenses because of lowered cost-shares. On May 14, 2013, the Secretary of Defense,
Chuck Hagel, stated “the Department of Defense is facing a historic shortfall in our
budget for the current fiscal year” and, as a result, DoD and other Federal agencies are
undergoing deep across-the-board cuts.         However, TMA generally paid overseas
claims as billed without attempting to reduce costs through negotiated rates or other
cost containment measures. Without negotiating rates or implementing other cost
containment measures, TMA potentially paid more than necessary for health care
services provided by overseas providers and missed potential opportunities to obtain
the best value for the health care services.


Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Assistant Secretary of Defense (Health Affairs):

         a.	 Initiate action to either establish negotiated rates with high-
            dollar-volume overseas health care providers or implement other
            cost containment measures in high-dollar-volume locations with
            significant increases.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary agreed with the need to implement cost containment
measures within the TOP; however, he disagreed with negotiating rates with
high-dollar-volume overseas health care providers until DHA determined the impact on
access to care for active duty service members and active duty family members. The
Assistant Secretary stated that DHA would include a requirement for a study in the
follow-on TOP contract to determine the feasibility of negotiating rates in South Korea
and the United Kingdom and any resulting impact on access to care. The Assistant
Secretary stated that the study would be completed within 90 days following the
start of health care delivery under the follow-on TOP contract. He stated that DHA
should not attempt to negotiate rates with overseas providers until there are other
health care alternatives that meet TRICARE requirements in the event providers
refuse to negotiate rates. The Assistant Secretary stated that DHA will implement the
Civilian Health and Medical Program of the Uniformed Services (CHAMPUS) Maximum
Allowable Charge Rates in the U.S. Territories in the follow-on TOP contract.




                                                                                       DODIG-2014-052 │ 13
Finding



                 The Assistant Secretary stated that DHA previously implemented some cost
                 containment measures within the TOP to include foreign fee schedules in Panama and
                 the Philippines, the requirement for the TOP contractor to determine the reasonableness
                 of health care claims in each location, pre-payment reviews for questionable claims,
                 post-payment reviews on all high-dollar claims, and proof of payment on all beneficiary
                 submitted claims. The Assistant Secretary expressed concern about the rise in the costs
                 of health care and its impact on DoD’s budget. He cited multiple factors contributing
                 to rising health care costs in the locations discussed in the report. Specifically, he
                 stated that:

                          •	 on October 1, 2010, the TOP contractor assumed responsibility for
                                Supplemental Health Care Program claims from the military services;

                          •	 DHA implemented, in 2010 and 2011, the TRICARE Retired Reserve and the
                                TRICARE Young Adult Programs, which increased purchased care costs in
                                the TOP; and

                          •	 there were increases in the number of claims and unique beneficiaries from
                                FY 2009 through FY 2012.

                 The Assistant Secretary stated that DHA reviewed the rising health care costs to
                 include analyzing claims submissions and unique beneficiary numbers. He also provided
                 data from FY 2009 through FY 2012 with the number of claims submitted and the
                 number of unique beneficiaries receiving care in locations where health care costs
                 have increased.       The Assistant Secretary stated that TRICARE costs increased in
                 Bahrain, Turkey, South Korea, Japan, Guam, the United Kingdom, and Italy, as a result of
                 increases in claims submissions and the number of unique beneficiaries that received
                 health care, coupled with health care inflation.

                 The Assistant Secretary stated that Japanese providers are not willing to negotiate
                 rates. He stated that every Japanese citizen has Japanese National Insurance and the
                 rates for their health insurance are set by the Japanese government. Additionally, the
                 Assistant Secretary stated that Japanese providers are bound by the same requirements
                 when providing care to non-Japanese citizens; however, they are provided flexibility
                 in the amount billed for health care provided to non-Japanese citizens. The Assistant
                 Secretary stated that prior attempts to establish a network of providers resulted in an
                 overwhelming number of Japanese providers who refused to negotiate any contract
                 with the TOP contractor.        The Assistant Secretary stated that DHA established a
                 unique payment process to ensure TRICARE beneficiaries had access to quality health
                 care in Japan.




14 │ DODIG-2014-052
                                                                                                    Finding



The Assistant Secretary stated that German law requires that providers charge
rates mandated under the German National Health Insurance. Further, he stated that
German providers may charge up to 3 percent higher than the rate set by law for private
insurance plans, such as TRICARE. The Assistant Secretary stated that DHA would
have no leverage to negotiate rates lower than what the law currently allows because
German laws control what the providers can charge.

The Assistant Secretary stated that while health care costs have decreased in Panama
and the Philippines, TRICARE Standard beneficiaries have experienced a negative
impact on access to care and increased out-of-pocket costs. Additionally, he stated
that DoD does not have a large permanent presence in Panama and the Philippines,
and TRICARE pays billed charges for health care provided to those active duty service
members and their family members. He stated that inpatient facilities in Panama
have refused to treat beneficiaries because TRICARE’s reimbursement rates did not
cover the facilities’ costs to deliver health care. He also stated that patients in the
Philippines have voiced the same concerns and the Philippine Demonstration Project
found providers unwilling to participate in the project to meet TRICARE’s requirements
to accept payment based on a foreign fee schedule. The Assistant Secretary provided
data that shows claims and beneficiaries have decreased in Panama, the Philippines,
and Puerto Rico—another reason for reduced costs in these locations.


Our Response
Comments from the Assistant Secretary partially addressed the recommendation.
Specifically, he agreed that DHA would include a requirement in the follow-on TOP
contract to determine whether negotiated rates would impact access to care in
South Korea and the United Kingdom.          Also, he agreed to implement CHAMPUS
Maximum Allowable Charges for physician services in U.S. Territories, to include
Guam, which may occur during the follow-on TOP contract. However, he did not agree
to initiate action to negotiate rates or implement other cost containment measures
for health care provided in Bahrain, Turkey, or Japan. Further, the Assistant Secretary
intends to delay the possibility of negotiating rates in South Korea and the United Kingdom
until the follow-on TOP contractor performs a study to determine the impact this
would have on access to health care for beneficiaries.

The study is a good first step to limit costs in South Korea and the United Kingdom;
however, the Assistant Secretary did not explicitly agree to negotiate rates or
implement other cost containment measures with providers in the United Kingdom and
South Korea. If the study shows that negotiating rates would not significantly impact




                                                                                          DODIG-2014-052 │ 15
Finding



                 access to care, then the Assistant Secretary should initiate action to negotiate rates
                 with overseas health care providers in the United Kingdom and South Korea. If the study
                 shows that negotiating rates would significantly impact access to care, the Assistant
                 Secretary should implement some other cost containment measures in those countries.
                 Also, DHA should modify the current TOP contract to begin the study in FY 2014 rather
                 than waiting for the TOP contract to end on August 31, 2015.

                 As stated in the report, although access to care is a valid concern, TMA officials were
                 unable to provide documentation to show that negotiating rates had resulted in access
                 to care problems. TMA implemented a per diem reimbursement system and maximum
                 allowable rates to limit payments on TOP claims for institutional and non-institutional
                 claims in the Philippines in 2004 and Panama in 2008.           Even though these cost
                 containment measures were in effect from 5 to 9 years, TMA could not provide
                 documentation of access to care problems based on these cost containment measures.
                 Also, TMA officials stated that they did not formally track access to care complaints.
                 Negotiations are voluntary agreements between parties.          TMA has not provided
                 any evidence to show an attempt to negotiate rates with any health care providers in
                 overseas countries.

                 We recognize that claims and beneficiaries increased in Bahrain, Turkey, South Korea,
                 Japan, Guam, and the United Kingdom.         This supports the necessity to negotiate
                 rates with overseas health care providers or implement other cost containment
                 measures.    Negotiating rates or implementing other cost containment measures,
                 where practical, should help DoD to keep overseas health care costs at a reasonable
                 level. From FY 2009 through FY 2012, the number of TRICARE beneficiaries for the
                 six-high-dollar-volume locations increased only 6.1 percent according to data
                 provided by a TMA contractor in support of the Plans and Analysis Branch, Beneficiary
                 Education and Support Division. (See Appendix C for more details on the TRICARE
                 beneficiary population statistics in overseas locations.)       Moreover, six locations
                 without cost containment measures generally had significant increases in the number
                 of claims and unique beneficiaries, which is a red flag for potential fraudulent activity.
                 The Assistant Secretary should implement cost controls in a more timely manner.

                 If Japanese providers are unwilling to negotiate rates, the Assistant Secretary
                 should implement a cost containment measure to review the cost reasonableness of the
                 claim. As shown in the report, TMA paid $9.6 million in FY 2012 for overseas health
                 care in Japan, $6.9 million or about 250.9 percent more than in FY 2009 when TMA
                 paid $2.7 million. In FY 2013, TMA paid $10.1 million for health care provided in
                 Japan. Also, the TRICARE beneficiary population only increased by a marginal amount,



16 │ DODIG-2014-052
                                                                                                 Finding



5.6 percent, from FY 2009 through FY 2012, according to data provided by a TMA
contractor. DHA personnel should increase their oversight of overseas health care
claims in Japan.

TMA payments for health care provided in Germany had a 9.1 percent increase from
FY 2009 through FY 2012; therefore, we concluded that the increase was not significant
enough to make a recommendation to the Assistant Secretary to negotiate rates with
German health care providers.

We commend the Assistant Secretary for agreeing to implement the use of CHAMPUS
Maximum Allowable Charges for physician services in the U.S. Territories such as Guam.
He should also expedite negotiating rates or implementing other cost containment
measures in Bahrain, Turkey, South Korea, Japan, and the United Kingdom. We request
that the Assistant Secretary reconsider his position on this recommendation and
provide additional comments to the final report. Also, the final comments should include
an expected date of completion for any actions that will be implemented.

         b.	 Establish procedures to negotiate rates directly with the TRICARE
           Overseas Program contractor when the contractor provides service as
           a health care provider.

Assistant Secretary of Defense (Health Affairs) Comments
The Assistant Secretary disagreed with our recommendation, stating that this
recommendation is a result of the increase in aeromedical evacuation (air ambulance)
costs identified. He stated that DHA has controls in place to ensure that aeromedical
evacuation costs are reasonable and appropriate. Specifically, he stated that every
aeromedical evacuation is reviewed and approved prior to the movement of any patient
by a military flight surgeon assigned to one of the Patient Movement Requirement
Centers in each of the overseas regions. Additionally, he stated that each aeromedical
evacuation is audited retrospectively to ensure the movement was appropriate and
followed the process for approval. The Assistant Secretary provided reasons for the
increase in aeromedical evacuation costs. He stated that the aeromedical evacuation
costs were reasonable based on their cost analysis and that there were adequate
internal controls in place. Therefore, he stated that DHA did not need to negotiate
aeromedical evacuation charges with the TOP contractor.




                                                                                       DODIG-2014-052 │ 17
Finding



                 Our Response
                 The Assistant Secretary did not address the specifics of the recommendation. DHA
                 personnel should establish procedures to negotiate rates directly with the TOP contractor
                 when it provides services as a health care provider. Specifically, DHA personnel should
                 ensure that the TOP contractor does not negotiate aeromedical evacuation rates, or any
                 other health care rates, with its own providers—TOP contractor personnel would not
                 be independent in negotiating rates with themselves.

                 Without negotiating rates, the contract provider could increase rates unchallenged.
                 In fact, aeromedical evacuation costs significantly increased under the current TOP
                 contract.   Aeromedical evacuation costs escalated from $1.99 million in FY 2010,
                 under the prior overseas contract, to $6.85 million in FY 2011, under the current TOP
                 contract. These costs have remained over $8 million annually since FY 2011, including
                 $8.07 million in FY 2013. Costs escalated when the aeromedical evacuation service
                 fixed-fee table, a cost containment measure in the prior contract, was not included
                 in the contract in effect at the time of our audit (H94002-10-D-0001). Specifically, that
                 contract (H94002-10-D-0001) did not include language on the amount the TOP
                 contractor could bill DoD when the contractor performs aeromedical evacuations
                 for TRICARE beneficiaries. The prior overseas contract (H94002-04-D-0004) provided
                 an aeromedical evacuation service fixed-fee table that cited fixed fees based on the
                 total evacuation expenses that the contractor could reference to bill DoD for this
                 service.    For example, the TOP contractor could have billed DoD a fixed fee of
                 $13,500 for any aeromedical evacuation in which the “transportation and related
                 expenses” were greater than $75,001. DHA personnel may negotiate a similar fixed-fee
                 table in the follow-on TOP contract for the aeromedical evacuations performed by the
                 TOP contractor. While we recognize that there may be legitimate reasons for the cost
                 increases in aeromedical evacuations, DHA personnel should attempt to negotiate
                 rates directly with the TOP contractor.

                 We request that the Assistant Secretary reconsider his position on this recommendation
                 and provide additional comments to the final report. Also, the final comments should
                 include an expected date of completion for any actions that will be implemented.




18 │ DODIG-2014-052
                                                                                              Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from January 2013 through December 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To accomplish our objective, we interviewed officials from TMA; the TOP contractor,
International SOS; and the claims processor, WPS. We discussed whether TMA and
TOP contractor officials negotiated rates with providers; potential access to care
concerns related to negotiating rates; and TRICARE institutional and non-institutional
cost containment initiatives including institutional per diem payment methodologies
and CHAMPUS Maximum Allowable Charges.             We also reviewed claims processor
work instructions, claims audit reports performed by International SOS, and quarterly
claims analysis performed by the TRICARE Claims Review Contractor.            We visited
the claims processor to obtain information on the TOP claims payment system and
information related to negotiated rates. We observed the claims processing procedures
and systems controls, and obtained claims payment information from the claims
processor’s TRICARE Manage Care System as well as documentation supporting medical
claims. We obtained the Medicare allowable rates from the Centers for Medicare &
Medicaid Services’ Physician Fee Schedule website and determined whether TRICARE
payments exceeded the Medicare allowable rate for three non-institutional procedures
provided by health care providers in Guam.

We obtained data from the MDR for FY 2009 to FY 2012 to create Table 1, Table 2,
Figure 1, Figure 2, and Appendix B. For Table 1, Table 2, and Figure 1, we calculated
the total payments for health care provided in each location in the TOP for FY 2009 to
FY 2012 by the TOP contractor. Data for the U.S. Territories were as of July 25, 2013
and data for all other locations were as of July 24, 2013 for Table 1, Table 2, Figure 1,
and Appendix B. For Figure 2, we calculated the percentage of payments made to the
five highest paid providers of institutional and non-institutional health care, excluding
prescription drugs, compared to the entire location for FY 2011 by the TOP contractor,
as of July 29, 2013. We also obtained payment information from the MDR to determine
the percentage of health care claims processed by the TOP contractor that were paid
as billed and the amounts billed were not reduced by cost containment measures for



                                                                                         DODIG-2014-052 │ 19
Appendixes



                 U.S. Territories other than a cost-share, deductible, or other health insurance. We did
                 not include TDEFIC claims in Table 1, Table 2, Figure 1, Figure 2, and Appendix B as
                 Medicare is generally the primary payer for these claims.

                 We reviewed United States Code, the Code of Federal Regulations, as well as DoD
                 and TMA documents from December 2002 to July 2013. We identified procedures
                 and requirements established for the TOP related to negotiating and adhering to
                 reasonable rates for health care services provided in overseas locations. Specifically,
                 we reviewed applicable sections of the Title 10, United States Code, Chapter 55,
                 Section 1097b, “TRICARE program: financial management,” revised January 3, 2012;
                 Title 32, Code of Federal Regulations, Chapter 1, Part 199, “Civilian Health and Medical
                 Program of the Uniformed Services (CHAMPUS),” revised January 22, 2013; as well
                 as various sections of the TRICARE Policy Manual 6010.57-M, February 1, 2008;
                 TRICARE Operations Manual 6010.56-M, February 1, 2008; TRICARE Reimbursement
                 Manual 6010.58-M, February 1, 2008; and TRICARE Systems Manual 7950.2-M,
                 February 1, 2008.      We also reviewed TOP contract H94002-10-D-0001, effective
                 October 16, 2009, valued at about $269.1 million and contract H94002-04-D-0004,
                 effective December 6, 2002, valued at about $24.5 million.


                 Use of Computer-Processed Data
                 We used computer-processed data to determine the amount paid for health care
                 provided in overseas locations and whether health care claims were generally paid
                 without cost containment measures. Specifically, we obtained the universe of all TOP
                 institutional and non-institutional claims data from the MDR for FY 2011 for health
                 care provided in the United Kingdom, Guam, and Panama. To test the reliability of the
                 data, we reviewed medical records and claims payment information for 295 claims
                 for health care provided in the United Kingdom, Guam, and Panama. We obtained
                 medical claims supporting documentation for the sample items from WPS’s imaging
                 system, FileNet. We also obtained claims payment information from WPS’s TRICARE
                 Manage Care System. We compared the medical claims and payment information to
                 the sample items to determine payment accuracy. Specifically, we compared the billed
                 amounts, allowed amounts, paid amounts, other health insurance payments, date of
                 service, patient deductibles, and patient cost-shares. We found only 5 of 295 claims
                 had inaccurate payment amounts accounting for $7,662.84 of the total amount paid
                 of $1,251,774.52 for the claims that we reviewed. Based on our testing, we determined
                 that the data in Table 1, Table 2, Figure 1, Figure 2, and Appendix B were sufficiently
                 reliable for the purposes of this report.




20 │ DODIG-2014-052
                                                                                              Appendixes



Use of Technical Assistance
The DoD Office of Inspector General Quantitative Methods Division provided technical
support for this project, but the report does not present significant quantitative methods
and results.


Prior Coverage
During the last 6 years, the DoD IG issued one report discussing cost containment
measures in the TRICARE Overseas Program. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/pubs.


DoD IG
Report No. D2008-045, “Controls Over the TRICARE Overseas Healthcare Program,”
February 7, 2008




                                                                                         DODIG-2014-052 │ 21
Appendixes




                 Appendix B
                 TRICARE Payments for Overseas Locations
                 The table below shows the amount paid by TMA for health care provided in overseas
                 locations for FY 2009 to FY 2012 in descending order by amount paid in FY 2012.

                                                                                                      Percent
                          Location1        FY 2009        FY 2010        FY 2011        FY 2012        Change
                                                                                                     (FY09-12)2
                      Germany             $95,451,433   $102,018,090   $119,005,339   $104,163,890        9.1%
                      Puerto Rico          23,145,504     23,286,386     24,599,426     21,835,895        (5.7)
                      South Korea           4,855,587      7,472,837     18,587,668     20,705,672       326.4
                      United Kingdom        9,962,000     10,535,811     17,914,223     18,624,491         87.0
                      Japan                 2,741,933      3,399,000      9,638,800      9,622,368       250.9
                      International SOS
                      Air Ambulance         1,817,605      1,990,025      6,848,665      9,614,580       429.0
                      (All Locations)3
                      Italy                 4,861,401      5,377,702      5,906,363      6,524,704         34.2
                      Bahrain                186,875        543,198       2,661,443      5,468,486      2,826.3
                      Turkey                1,114,534      1,718,403      3,856,781      4,789,468       329.7
                      Guam                  2,206,403      2,611,078      3,934,796      4,585,942       107.8
                      Philippines          20,207,834      6,914,361      4,021,874      3,610,817       (82.1)
                      Singapore             2,136,366      2,674,315      2,533,618      2,458,930         15.1
                      Virgin Islands        1,475,313      1,855,349      2,238,308      2,378,004         61.2
                      Belgium               1,931,948      1,645,666      2,496,621      1,927,019        (0.3)
                      Greece                2,011,914      1,985,146      1,945,987      1,905,063        (5.3)
                      Thailand              2,278,918      2,520,176      2,650,342      1,882,779       (17.4)
                      Spain                 1,297,575      1,605,914      1,664,275      1,798,527         38.6
                      Australia              944,572       1,104,933      1,579,899      1,699,924         80.0
                      Mexico                1,480,945      1,506,466      1,638,702      1,594,148          7.6
                      Panama                4,432,911      2,270,304      1,509,781      1,458,881       (67.1)
                      Canada                1,138,218       878,551        998,510        715,330        (37.2)
                      France                 624,097        915,710        937,149        684,009           9.6
                      United Arab            465,569        600,165        509,821        668,817          43.7
                      Emirates
                      Costa Rica             992,096       1,093,811       400,187        642,422        (35.2)
                      Netherlands           1,085,750       881,870        836,011        628,138        (42.1)




22 │ DODIG-2014-052
                                                                                     Appendixes



                                                                    Percent
    Location1      FY 2009     FY 2010     FY 2011     FY 2012       Change
                                                                   (FY09-12)2
Portugal             713,552     561,126     703,986     600,289       (15.9)
Austria              322,629     596,618     428,617     480,096         48.8
Israel               328,137     350,196     376,786     410,611         25.1
Colombia             335,344     369,650     365,292     400,979         19.6
Norway               275,701     281,340     394,517     375,068         36.0
Saudi Arabia         402,245     440,417     462,338     373,740        (7.1)
China                469,446     361,817     301,576     296,674       (36.8)
Hong Kong            401,443     294,021     190,805     282,613       (29.6)
Switzerland          768,918   3,913,501   1,048,593     264,486       (65.6)
Brazil               277,484     213,212     980,151     246,164       (11.3)
Chile                290,330     250,280     236,995     238,545       (17.8)
Honduras             193,274     233,026     324,210     233,390         20.8
South Africa         149,069     322,275     265,951     215,898         44.8
Peru                 169,117     304,765     158,656     184,005          8.8
El Salvador          113,447     171,692     123,553     182,792         61.1
Bahamas              235,707     245,812     175,435     173,410       (26.4)
American Samoa       204,941     166,020     130,353     172,971       (15.6)
Northern             181,956     164,618     123,357     163,507       (10.1)
Mariana Islands
Jordan               117,045     112,422     114,393     129,796         10.9
Guatemala             75,079      70,113      88,782     118,286         57.5
Qatar                448,194     394,723     175,674     116,006       (74.1)
Dominican            221,104     207,396     161,351     111,222       (49.7)
Republic
Ecuador               79,634      89,805      87,976     103,835         30.4
Uruguay               52,077     109,085     100,136     100,091         92.2
Marshall Islands      59,546      44,370      70,742      96,845         62.6
Luxembourg            30,490      46,739      50,781      91,580       200.4
Vietnam               24,026      29,811      54,525      83,315       246.8
New Zealand           78,923      65,036      55,054      82,305          4.3
Ireland               89,234     148,527     198,213      80,624        (9.6)
Taiwan                59,936      74,936      42,180      78,209         30.5
Lebanon               33,180      35,755      38,702      75,262       126.8
Malaysia              51,034      51,938      70,959      74,572         46.1




                                                                                DODIG-2014-052 │ 23
Appendixes



                                                                                                                                     Percent
                          Location1                FY 2009              FY 2010              FY 2011               FY 2012            Change
                                                                                                                                    (FY09-12)2
                      Bermuda                         122,074                99,319                89,493               72,085             (41.0)
                      Russian                           98,444               76,158              120,545                70,932             (27.9)
                      Federation
                      Jamaica                           25,182               16,528                30,682               64,489             156.1
                      Kuwait                            80,107              133,669              151,305                61,424             (23.3)
                      Argentina                         36,723               72,820                78,120               61,286              66.9
                      Indonesia                         34,143               65,910                76,268               58,141              70.3
                      Poland                            42,111               52,435                78,172               53,458              26.9
                      Cayman Islands                    53,562               11,422                10,433               51,352              (4.1)
                      Kenya                             62,854               84,970                76,040               50,460             (19.7)
                      Nicaragua                         36,171               35,479                34,146               49,805              37.7
                      Oman                              70,495               82,868                69,370               48,317             (31.5)
                      Egypt                           137,575               110,666                60,046               48,042             (65.1)
                      Venezuela                         30,816               36,819              111,005                47,279              53.4
                      Morocco                           14,391               18,713                52,767               46,884             225.8
                      Ukraine                           13,986                 8,386               22,972               43,949             214.2
                      Finland                           70,157               30,253                33,968               40,243             (42.6)
                      Hungary                           47,689               53,497                58,908               39,570             (17.0)
                      Czech Republic                    36,360               51,659                44,893               38,245                5.2
                      Cyprus                            39,771               75,377                67,225               33,265             (16.4)
                      Denmark                           52,821               31,151                19,278               31,935             (39.5)
                      India                             32,824               28,898                33,459               29,825              (9.1)
                      Sweden                          365,134                93,590                46,435               25,853             (92.9)
                      All Other
                      Locations                       633,155               591,500              571,167              467,025              (26.2)
                      (85 in FY 2012)4
                        Total5                 $198,236,086          $199,988,395         $248,951,926         $238,159,355                 20.1

                 Source: MDR as of July 2013
                 	1	
                        The data in the table does not include care provided under the TDEFIC.
                 	 2	
                        Percentages do not equal due to rounding.
                 	3	
                        The International SOS air ambulance claims were excluded from the Australia, Singapore, United Arab Emirates, United
                        Kingdom, and Venezuela totals and listed separately because they were originally included in the totals for care rendered in
                        these locations, even if the air ambulance origin or destination did not include those locations.
                 	 4	
                        Locations where TMA paid less than $25,000 in FY 2012.
                 	5	
                        Totals for FY 2009 to FY 2012 do not equal due to rounding.




24 │ DODIG-2014-052
                                                                                                Appendixes




Appendix C
TRICARE Beneficiary Population Statistics in
Overseas Locations
In the table below are the statistics of all the beneficiaries that are eligible for
TRICARE benefits that reside in overseas locations as of September 30th of the applicable
fiscal year.

                                                                               Percent
         Location      FY 2009      FY 2010        FY 2011        FY 2012      Change
                                                                              (FY09-12)
 *Bahrain                  2,824         2,814          2,855         2,908          3.0
 *Turkey                   1,836         1,986          1,904         1,949          6.2
 *South Korea             27,309        29,525         30,574        29,389          7.6
 *Japan                   55,057        55,088         56,256        58,114          5.6
 *Guam                     8,556         8,105          8,028         7,921        (7.4)
 *United Kingdom          13,781        14,224         15,178        15,781        14.5
   Subtotal              109,363       111,742       114,795        116,062          6.1
 U.S. Virgin Islands         448          525            416            383       (14.5)
 Italy                    12,103        12,658         12,235        12,257          1.3
 Singapore                   236          253            254            294        24.6
 Germany                  65,246        64,694         66,929        61,750        (5.4)
   Subtotal               78,033        78,130         79,834        74,684        (4.3)
 Puerto Rico               7,045         7,177          6,553         5,625       (20.2)
 Panama                      386          541            585            615        59.3
 Philippines              10,294        10,096          9,946         9,762        (5.2)
   Subtotal               17,725        17,814         17,084        16,002        (9.7)
   Total                 205,121       207,686       211,713        206,748         0.8


The population statistics were provided by a TMA contractor supporting the Plans
and Analysis Branch Beneficiary Education and Support Division at TMA. The data is
computer-processed data that has not been tested by DoD OIG auditors; therefore,
the data may not be accurate.




                                                                                           DODIG-2014-052 │ 25
Management Comments




                 Management Comments
                 Assistant Secretary of Defense (Health Affairs)




26 │ DODIG-2014-052
                                                   Management Comments



Assistant Secretary of Defense (Health Affairs) (cont’d)




                                                           DODIG-2014-052 │ 27
Management Comments



                 Assistant Secretary of Defense (Health Affairs) (cont’d)




28 │ DODIG-2014-052
                                                   Management Comments



Assistant Secretary of Defense (Health Affairs) (cont’d)




                                                           DODIG-2014-052 │ 29
Management Comments



                 Assistant Secretary of Defense (Health Affairs) (cont’d)




30 │ DODIG-2014-052
                                                   Management Comments



Assistant Secretary of Defense (Health Affairs) (cont’d)




                                                           DODIG-2014-052 │ 31
Management Comments



                 Assistant Secretary of Defense (Health Affairs) (cont’d)




32 │ DODIG-2014-052
                                                   Management Comments



Assistant Secretary of Defense (Health Affairs) (cont’d)




                                                           DODIG-2014-052 │ 33
Management Comments



                 Assistant Secretary of Defense (Health Affairs) (cont’d)




34 │ DODIG-2014-052
                                                                                                                                                                       Appendixes



Assistant Secretary of Defense (Health Affairs) (cont’d)

  Actual Aero Medical Evacuation Cost Under TOP Contract Compared to Estimated Aero Medical Evacuation Cost Using Commercial Air Ambulances

                                                                                TOP
                                                             Total Miles
  Case Number      Originating City     Destination City                     Contractor             Commercial Air Ambulance Estimated Cost (See Note 2)
                                                             (See Note 1)
                                                                               Cost
                                                                                               #1             #2              #3             #4            #5
                                                                                                          $22,459 to                    $663,900 to
   3LON026213      Cotonou, Benin      Ramstein, Germany         6,539       $173,426       $789,913                     $1,565,908                     $902,232
                                                                                                           $36,276                        $995,850
                                                                                                          $23,573 to                    $675,100 to
   3LON027012          Djibouti        Ramstein, Germany         6,651       $146,821       $803,239                     $1,592,452                     $917,464
                                                                                                           $37,580                       $1.012,650
                    Andros Town,                                                                          $5,969 to                      $46,400 to
   3PHL032972                          Fort Lauderdale, FL        364         $16,159         $55,212                     $102,433                      $62,432
                      Bahamas                                                                               $9,288                         $69,600
                                                                                                          $7,788 to                     $$123,500 to
   3SIN020152     Jakarta, Indonesia       Singapore             1,135        $17,761       $25,407                       $285,160                      $167,288
                                                                                                           $12,758                        $185,250
                                                                                                          $43,792 to                     $$1,397,200
   3SIN021037        Hong Kong            Honolulu, HI          13,872       $336,223      $1,662,394                    $3,303,829                   $1,899,520
                                                                                                           $70,074                      to $2,095,800
                                                                                                            $12,553 to                    $399,400 to
   4PHL000601        San Juan, PR       Washington, DC           3,894        $36,531       $475,211                        $939,043                    $542,512
                                                                                                             $21,173                       $599,100
  Note 1: Total miles equal miles from aircraft's homeport to patient's location to patient's destination and back to aircraft's homeport
  Note 2: Estimated cost includes estimated take-off cost (base rate), estimated mileage cost, and estimated miscellaneous cost if known.




                                                                                                                                                                  DODIG-2014-052 │ 35
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                       ASD(HA) Assistant Secretary of Defense (Health Affairs)
                      CHAMPUS Civilian Health and Medical Program of the Uniformed Services
                           DHA Defense Health Agency
                           MDR Military Health System Data Repository
                         TDEFIC TRICARE Dual Eligible Fiscal Intermediary Contract
                           TMA TRICARE Management Activity
                           TOP TRICARE Overseas Program
                           WPS Wisconsin Physicians Service




36 │ DODIG-2014-052
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
